<html>
<title> - EXAMINING VA'S ON-THE-JOB TRAINING AND APPRENTICESHIP PROGRAM</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]









     EXAMINING VA'S ON-THE-JOB TRAINING AND APPRENTICESHIP PROGRAM

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                      WEDNESDAY, NOVEMBER 18, 2015

                               __________

                           Serial No. 114-46

                               __________

       Printed for the use of the Committee on Veterans' Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov
         
         
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

24-361                         WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               CORRINE BROWN, Florida, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Minority Member
    Chairman                         MARK TAKANO, California
DAVID P. ROE, Tennessee              JULIA BROWNLEY, California
DAN BENISHEK, Michigan               DINA TITUS, Nevada
TIM HUELSKAMP, Kansas                RAUL RUIZ, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
JACKIE WALORSKI, Indiana             KATHLEEN RICE, New York
RALPH ABRAHAM, Louisiana             TIMOTHY J. WALZ, Minnesota
LEE ZELDIN, New York                 JERRY McNERNEY, California
RYAN COSTELLO, Pennsylvania
AMATA RADEWAGEN, American Samoa
MIKE BOST, Illinois
                       Jon Towers, Staff Director
                Don Phillips, Democratic Staff Director

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                     BRAD WENSTRUP, Ohio, Chairman

LEE ZELDIN, New York                 MARK TAKANO, California, Ranking 
AMATA RADEWAGEN, American Samoa          Member
RYAN COSTELLO, Pennsylvania          DINA TITUS, Nevada
MIKE BOST, Illinois                  KATHLEEN RICE, New York
                                     JERRY McNERNEY, California

Pursuant to clause 2(e)(4) of rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.






















                            C O N T E N T S

                              ----------                              

                      Wednesday, November 18, 2015

                                                                   Page

Examining VA's On-The-Job Training And Apprenticeship Program....     1

                           OPENING STATEMENTS

Honorable Brad Wenstrup, Chairman................................     1
Honorable Mark Takano, Ranking Member............................     2

                               WITNESSES

Mr. Andrew Sherrill, Director, Education, Workforce, and Income 
  Security, U.S. Government Accountability Office................     3
    Prepared Statement...........................................    21
Dr. Joseph W. Wescott, Legislative Director, National Association 
  of State Approving Agencies....................................     5
    Prepared Statement...........................................    25
MG Robert M. Worley II USAF (Ret.), Director, Education Service, 
  Veterans Benefit Administration, U.S. Department of Veterans 
  Affairs........................................................     6
    Prepared Statement...........................................    28
Mr. Eric Seleznow, Deputy Assistant Secretary, Employment and 
  Training Administration, U.S. Department of Labor..............     8
    Prepared Statement...........................................    30

 
     EXAMINING VA'S ON-THE-JOB TRAINING AND APPRENTICESHIP PROGRAM

                              ----------                              


                      Wednesday, November 18, 2015

            Committee on Veterans' Affairs,
                    U. S. House of Representatives,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 2:01 p.m., in 
Room 334, Cannon House Office Building, Hon. Brad Wenstrup 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Wenstrup, Costello, Takano, Rice, 
and McNerney.
    Also Present: Representative Coffman.

          OPENING STATEMENT OF BRAD WENSTRUP, CHAIRMAN

    Mr. Wenstrup. Good afternoon, everyone. I want to welcome 
you all to the Subcommittee on Economic Opportunity's hearing 
today entitled ``Examining VA's On-the-Job Training and 
Apprenticeship Program.''
    Before we begin, I want to ask unanimous consent that our 
colleague, Mr. Coffman, be allowed to sit up at the dais and 
ask questions. And he will be here shortly.
    Hearing no objection, so ordered.
    Expanding employment and training opportunities for 
veterans is the core mission of this Subcommittee, and today we 
are here to review what I believe is one of the best but 
unknown and underutilized programs designed to help veterans 
achieve economic success.
    By using VA's OJT and Apprenticeship Program, veterans are 
able to supplement their incomes with both the living stipend 
payments from the VA for the Post-9/11 GI Bill benefits, as 
well as the wages from their employer while they are a trainee, 
and at the end of their training program, they are able to step 
right into a beneficial career. I don't know of many majors or 
programs at institutions of higher learning that can promise a 
job at the end of their programs, and that is what makes this 
program so special.
    Despite the many positives of using this program, very few 
veterans have used this benefit, which caused the Subcommittee 
and our colleague, Mr. Coffman, to be concerned that VA has 
room for improvement in promoting this program at TAP or 
through their marketing materials for the Post-9/11 GI Bill. 
That is why we asked GAO to conduct their study and issue the 
report that is the focus of the hearing today.
    Unfortunately, GAO confirmed what this Subcommittee 
believed and found that for those who find out about these 
programs it is very beneficial. However, most veterans don't 
realize that this type of program even exists and VA is not 
doing a sufficient job of educating transitioning veterans on 
the option of using the OJT and Apprenticeship Program.
    I was troubled to read that the administration of this 
program seems to be trapped in basically 20th century methods. 
GAO found that OJT payments are still completed in a paper-
based system that is inefficient and burdensome, to quote them, 
and relies on participating training programs to mail or fax in 
certification forms that allow veterans to be paid. In fact, 
GAO's report found that almost half of the employers they 
interviewed had to resubmit monthly certifications because VA 
officials had lost them or not received them.
    Ladies and gentlemen, it is no wonder that the VA has had a 
hard time finding businesses that want to participate in this 
program if they are forced to fax or mail in forms to the VA. I 
simply don't understand why in the year 2015 we are still 
relying on the U.S. Postal Service or a fax machine to submit 
VA paperwork. So I am interested in hearing from VA on how it 
plans to address this issue and join the 21st century.
    Equally troubling is the finding in this report that the VA 
does not track any type of outcomes for veterans who use the 
OJT and Apprenticeship Program. GAO found that VA has not even 
considered requesting to use State wage records to track 
performance. I know the VA has done a lot of work to begin 
tracking performance outcomes of students going to traditional 
higher education programs, but I think they also need to step 
up to the plate and begin tracking some of the outcomes of this 
program. This is basic government 101 and I think it needs to 
be addressed pretty quickly.
    I have said it before and I will say it again, VA has to 
figure out what type of sensible metrics will be used or 
Congress will make them up for you. And you probably don't want 
that. And we would rather you do it.
    I look forward to hearing from our witnesses today about 
how we can improve this program that I believe has the 
potential to help many veterans for generations to come.
    And with that, I recognize the Ranking Member, Mr. Takano, 
for his opening remarks.

        OPENING STATEMENT OF MARK TAKANO, RANKING MEMBER

    Mr. Takano. Thank you, Mr. Chairman.
    Today's hearing will focus on the GAO's report on the VA's 
On-the-Job Training and Apprenticeship Program. In studying 
this program, GAO found that most veterans who have used their 
GI benefits to participate in VA's on-the-job training and 
apprenticeships have had positive experiences as they 
transition back into civilian life. That is the good news here 
today.
    The bad news is that there were so few veterans to survey 
about their experiences. More veterans should be participating 
in this valuable program. In addition to identifying the high 
satisfaction combined with low participation, the GAO has 
provided a helpful roadmap that shows how to expand the OJT and 
Apprenticeship Program while maintaining the transparency and 
accountability that this Committee demands.
    In this case, we have what appears to be a very promising 
avenue for transitioning veterans to find satisfying, long-term 
employment. Our goal today is to consider GAO's recommendations 
and ensure that VA can articulate its plan to implement these 
recommendations sooner rather than later.
    When we look down the road to a future Economic Opportunity 
Subcommittee hearing on this same topic, I hope VA will be able 
to report on the program's success based on clear, measurable 
outcomes that demonstrate the benefit of OJT and 
apprenticeships for transitioning veterans.
    Thank you, Mr. Chairman. I yield back.
    Mr. Wenstrup. Thank you, Mr. Takano.
    I welcome our only panel to the table. With us today we 
have Mr. Andrew Sherrill, Director of Education, Workforce, and 
Income Security for the U.S. Government Accountability Office; 
Dr. Joseph Wescott, Legislative Director for the National 
Association of State Approving Agencies; General Robert Worley, 
Director of VA's Education Service; and Mr. Eric Seleznow, 
Deputy Assistant Secretary for DOL's Employment and Training 
Administration.
    I thank you all for being here today. Your complete written 
statements will be made part of the hearing record. And you 
will be recognized for 5 minutes for your oral statement.
    So let's begin with Mr. Sherrill. You are now recognized 
for 5 minutes.

                  STATEMENT OF ANDREW SHERRILL

    Mr. Sherrill. Thank you, Chairman Wenstrup, Ranking Member 
Takano, and Members of the Subcommittee. I am pleased to be 
here today to discuss the findings from the report we issued 
last week on the Department of Veterans Affairs' Post-9/11 GI 
Bill on-the-job training and apprenticeship programs.
    Post-9/11 GI Bill benefits were initially available only 
for higher education, which may not be the best path for every 
veteran. But in 2011, provisions were enacted that expanded 
benefits to cover OJT and apprenticeships. For those who may 
not be interested in higher education, OJT and apprenticeships 
offer an opportunity to work full-time while training. In 
addition to the wages they earn from their employer as a 
trainee or apprentice, veterans receive a tax-free monthly 
housing payment from VA.
    For our report, we analyzed VA program data and surveyed 
State officials in all 44 States responsible for overseeing 
these programs. We conducted nongeneralizable surveys to 
collect information from veterans, as well as employers and 
apprenticeship sponsors who participated in these programs. We 
also analyzed information about these programs on the VA and 
Department of Labor Web sites and in their outreach materials.
    In summary, the veterans we surveyed said that Post-9/11 
OJT and apprenticeship programs have helped them transition to 
civilian life. But program data show relatively few veterans 
have participated. Over two-thirds of the veterans we surveyed 
specifically noted that receiving supplemental income helped 
them cover living expenses while transitioning to civilian 
life. About half of the veterans responding to the survey 
reported that the programs allowed them to use their GI Bill 
benefits even though college was not a good fit for them.
    We also found that since the OJT and apprenticeship 
programs became available in 2011, about 27,000, or 2 percent, 
of the 1.2 million veterans who received GI Bill benefits have 
participated in these programs.
    Our report identified three areas in which the programs 
could be improved. First, we found that a key challenge is lack 
of awareness of these programs. For example, State approving 
agencies in 39 of the States that administer the programs 
reported that veterans' and employers' lack of awareness of 
these programs is a primary challenge.
    VA provides information about the OJT and apprenticeship 
programs through mandatory Transition Assistance Program 
briefings for transitioning servicemembers. However, these 
briefings generally emphasize higher education. For example, 
out of the 77 total pages in the TAP facilitator guide and 
briefing slides for the mandatory VA Benefits I and II courses, 
there is only one reference to the OJT and apprenticeship 
programs.
    In discussing Post-9/11 GI Bill benefits, the briefing 
slides generally refer to "education, tuition, school," and 
"student" and do not refer to employers, OJT, or apprenticeship 
opportunities. Similarly, we found the information provided on 
VA's Post-9/11 GI Bill Web page and on its OJT and 
apprenticeship Web pages lacks enough detail for users to 
reasonably understand how to use their GI Bill benefits for 
these programs.
    We recommended that VA identify and implement appropriate 
cost-effective actions to increase awareness of OJT and 
apprenticeship benefits. VA agreed and said it will develop a 
guide for employers and apprenticeship sponsors about these 
programs.
    A second area for improvement we identified is the 
administrative burdens associated with processing monthly 
benefit payments. Over half of State officials we surveyed 
cited challenges related to VA's current paper-based payment 
processing system, which requires employers to fax or mail 
monthly forms to VA in order for a veteran to receive benefits. 
In addition, 11 of the 15 employers and apprenticeship sponsors 
we interviewed said the process is burdensome or inefficient, 
and 7 said they often had to resubmit monthly certification 
multiple times because VA officials said they had not received 
them.
    VA is developing a new data system called VA-CERTS to 
address these issues, but VA officials said the system may not 
be implemented until 2017 at the earliest. So in the interim, 
administrative challenges could hinder program participation, 
and we recommended that VA identify and implement cost-
effective steps to ease administrative challenges as it is 
developing this VA-CERTS system. VA agreed and said it would 
develop a plan to ease these challenges.
    A third area in which the program could be improved is 
measuring program performance. We found that little is known 
about the performance of VA's OJT and apprenticeship programs 
because VA does not measure program outcomes, such as whether 
participants retained employment after completing the program. 
Without such measures, VA is limited in its ability to assess 
its programs and veterans may not be well positioned to 
determine which GI Bill benefits are most suitable for them.
    We recommended that VA establish measures to report on 
outcomes for these programs, including considering relevant 
data sources and seeking legislative authority to gain access 
to data if necessary. VA agreed with this recommendation and 
said it will develop a plan to determine the feasibility of 
collecting and publishing program outcome data for these 
programs.
    That concludes my statement. I would be happy to answer any 
questions you might have.

    [The prepared statement of Andrew Sherrill appears in the 
Appendix]

    Mr. Wenstrup. Thank you, Mr. Sherrill, for your 
constructive remarks.
    Dr. Wescott, you are now recognized for 5 minutes.

                 STATEMENT OF JOSEPH W. WESCOTT

    Mr. Wescott. Chairman Wenstrup, Ranking Member Takano, and 
Members of the Subcommittee on Economic Opportunity, I am 
pleased to appear before you today on behalf of the over 55 
member agencies of the National Association of State Approving 
Agencies and appreciate the opportunity to provide comments on 
examining VA's On-the-Job Training and Apprenticeship Program. 
I am accompanied today by Mr. Dan Wellman, the NASAA president.
    Mr. Chairman, we agree with the GAO that there are three 
main areas surrounding the OJT and Apprenticeship Program that 
need improvement. They are outreach, administrative challenges, 
and outcome measures. We strongly agree that outreach efforts 
need to be improved, and we believe that State approving 
agencies can be a major part of the solution. SAAs are already 
a part of the process in that we approve and oversee all non-
Federal OJT and apprenticeship programs.
    With adequate funding or an adjustment in our contractual 
requirements, we can provide a more robust outreach to 
potential employers of veterans and their dependents. For 
example, from fiscal year 2008 until fiscal year 2011, SAAs 
increased the number of approved apprenticeship and OJT 
facilities with at least one active veteran or eligible 
dependent from 4,471 to 5,285. However, due to our contractual 
focus on oversight and our constrained funding, the number of 
approved active facilities in fiscal year 2015 has fallen to 
only 3,551.
    Even in this constrained environment, SAAs have been 
creative and innovative in attempting to reach employers and 
veterans with the message that there is another path to 
employment for them in addition to college. For example, the 
Missouri SAA, under Director Chad Schatz, produces a CD aptly 
titled ``The GI Bill--It's Not Just for College.'' This 8-
minute CD reflects the perspective of the veteran, the 
employer, the VA, and the SAA, and it is used by many National 
Guard units, employers, and SAAs across the Nation.
    Mr. Chairman, we recommend that VA conduct national 
outreach efforts concerning these programs, while the SAA 
should remain focused on State and local outreach. We would 
encourage the VA to place more emphasis on their Web site 
regarding apprenticeship and OJT opportunities. Likewise, we 
would suggest outreach efforts by the VA and SAAs should focus 
on all current chapters of the GI Bill. We would also like to 
be able to conduct annual supervisory visits to apprenticeship/
OJT programs. During these visits, we are able to discuss the 
approval and administration of the program with the certifying 
officials and we can provide assistance to veterans enrolled in 
these programs. Ultimately, supervisory visits strengthen 
outreach activities in the field.
    Additionally, current law limits the abilities of SAAs to 
be reimbursed under their contract for outreach efforts. NASAA 
recommends 38 USC 3674 be modified to add an additional 
category of reimbursement for outreach and marketing.
    NASAA has long sought the automation of the apprenticeship/
OJT process and claims processing. We strongly concur with the 
concerns raised in the GAO report regarding the need to ease 
administrative challenges. Automation would provide VA and SAAs 
with the ability to accurately track the number of active 
apprenticeship/OJT programs and how many veterans are actually 
enrolled in the program.
    NASAA recommends that until the VA is able to establish an 
electronic system for apprenticeship/OJT payments, the VA 
should consider reducing the administrative burden on employers 
with approved programs by allowing them to certify all veterans 
enrolled in the program on one enrollment form. NASAA also 
stands ready to implement a jointly administered pilot project 
in one of our larger apprenticeship/OJT States to test this 
suggested change in policy. Nonetheless, a reliable and valid 
automation system remains critical to the eventual improvement 
of this program.
    While we understand the challenges the VA faces in 
developing outcome measures for this program, we concur with 
the GAO on the need for these measures. We would strongly 
recommend that the VA partner with us in the development of 
these measures.
    Mr. Chairman, the OJT and apprenticeship programs provide a 
tremendous opportunity to put our Nation's veterans back to 
work immediately in meaningful and rewarding careers that are 
needed in our economy. We applaud the efforts of this 
Committee, our VA partners and stakeholders, and the GAO to 
improve the administration of the VA apprenticeship/OJT 
program. I thank you again for this opportunity, and I look 
forward to answering any questions that you and the Committee 
may have.

    [The prepared statement of Joseph W. Wescott appears in the 
Appendix]

    Mr. Wenstrup. Thank you, Dr. Wescott.
    General Worley, you are now recognized for 5 minutes.

       STATEMENT OF MG ROBERT M. WORLEY II USAF (RETIRED)

    General Worley. Thank you, Mr. Chairman.
    Good afternoon, Mr. Chairman and Ranking Member Takano and 
other distinguished Members of the Subcommittee. I am pleased 
to be here today to discuss the Department of Veterans Affairs' 
education benefit programs. My testimony will focus on VA's 
administration of on-the-job training and apprenticeship 
programs under the Post-9/11 GI Bill.
    Public Law 111-377, which was signed into law on January 
4th of 2011, amended the Post-9/11 GI Bill by expanding 
eligibility for certain individuals, modifying the amounts of 
assistance available, and increasing the types of approved 
programs which included OJT and apprenticeships.
    Both OJT and apprenticeship programs are available to 
veterans using their VA education benefits under the Post-9/11 
GI Bill. These programs allow veterans to learn a trade or 
skill through training on the job instead of attending formal 
classroom instruction at an institution of higher learning or 
at a vocational school. Eligible veterans pursuing training 
under the Post-9/11 GI Bill OJT and apprenticeship programs, in 
addition to their wages, receive a monthly housing allowance 
which decreases in 6-month increments as wages are increased. 
Participants also receive up to $83 a month for books and 
supplies.
    Of 725,000 new Post-9/11 GI Bill beneficiaries added 
between fiscal year 2012 and fiscal year 2015, approximately 
35,000, or about 4.8 percent, pursued training through OJT or 
apprenticeship programs. Today, there are over 3,500 active OJT 
and apprenticeships, and in fiscal year 2015 alone 22,000 
veterans pursued training through these programs.
    In September of 2014, VA and the Department of Labor sent a 
joint letter to approximately 10,000 registered apprenticeship 
sponsors encouraging them to recruit and hire veterans into 
their apprenticeship programs. The letter informed them of VA's 
deemed approved status for any DOL-registered apprenticeship 
program and provided information on the streamlined process to 
obtain approval through their State approving agencies.
    VA has conducted two targeted online marketing campaigns to 
promote OJT and apprenticeship programs under the Post-9/11 GI 
Bill, one in 2011, after Public Law 111-377 was enacted, and 
one in 2013. There is significant information on the GI Bill 
Web site and VA recently has enhanced its Transition Assistance 
Program curriculum in the Benefits I and the career technical 
track regarding OJT and apprenticeship opportunities.
    The recently released GAO report includes three major 
recommendations: That VA take action to increase awareness of 
OJT and apprenticeships, that VA take steps to ease the 
administrative challenges in submitting paperwork or receiving 
payments, and that VA establish measures to report program 
outcomes for OJT and apprenticeships. The VA agrees with these 
recommendations.
    VA is already taking action to implement them. 
Specifically, VA has developed a guide for employers and 
sponsors on VA benefits for OJT and apprenticeship programs. 
The guide is now available on the GI Bill Web site and will be 
available on the eBenefits Employment Center in the near 
future. Today, the VBA's Office of Economic Opportunity is 
sending out an email blast to thousands of recipients regarding 
OJT and apprenticeship opportunities. Also, this morning, the 
VA posted a note on its Facebook page, again about OJT and 
apprenticeships. This page has about a million followers. We 
will do this on a more regular basis to keep the awareness 
going.
    Additionally, we have established a working group to 
expeditiously explore cost-effective options to ease the 
administrative challenges for employers and veterans in 
submitting the paperwork and receiving payments until the new 
VA-CERTS system is in place.
    VA also agrees that program performance measures are 
important and should be developed to report on program outcomes 
for Post-9/11 GI Bill OJT and apprenticeship programs. As you 
mentioned, Mr. Chairman, over the past 3 years, the VA has 
actively collaborated with the Department of Education, the 
Department of Defense, and many others to establish outcome 
measures for the Post-9/11 GI Bill in accordance with Executive 
Order 13607 and Public Law 112-249. VA has for the first time 
published those veteran-specific outcome measures on the GI 
Bill Web site. Those measures are graduation rates, certificate 
completion, retention, persistence, and transfer out rates. 
That happened in September of this year.
    VA, in collaboration with the Department of Education, is 
currently exploring the collection of post-graduation data 
related to employment rates and average salary for graduates.
    Mr. Chairman, this concludes my statement. Thank you for 
the opportunity to appear before you today. And I am pleased to 
answer any questions you or the Committee may have.

    [The prepared statement of General Worley appears in the 
Appendix]

    Mr. Wenstrup. Thank you, General. I appreciate it.
    Mr. Seleznow, you are now recognized for 5 minutes.

                   STATEMENT OF ERIC SELEZNOW

    Mr. Seleznow. Thank you very much. Good afternoon, Chairman 
Wenstrup, Ranking Member Takano, and other distinguished 
Members of the Subcommittee. I am pleased to be here today to 
discuss the Department of Labor's apprenticeship and on-the-job 
training programs and how they assist veterans and 
transitioning servicemembers.
    Prior to joining DOL, I worked in the local workforce 
system for about 20 years in Montgomery County, Maryland, and I 
worked at the Governor's Workforce Investment Board in the 
State of Maryland. Through those experiences, I worked directly 
on our American Job Service Centers, worked with veterans, 
worked with stakeholders, and understand how this works at the 
point-of-service retail level, if you will.
    Today's discussion is particularly appropriate as DOL 
recently celebrated the first-ever National Apprenticeship Week 
November 1 through 8, just a couple of weeks ago. It was a big 
success. We had all sorts of apprenticeship opportunities for 
leaders in business, labor, education, and other partners who 
expressed their support in activities for registered 
apprenticeship.
    Under the Workforce Investment Act, 14 million people 
complete DOL programs annually, mostly through our 2,500 
American Job Centers across the country. Of those 14 million 
people, about a million of those are veterans, and over half of 
those veterans end up getting jobs.
    American Job Centers are the cornerstone of our unique 
Federal, State, and local partnerships that comprise the public 
workforce system of not only Workforce Innovation and 
Opportunity Act programs, but also an array of local partners, 
including veteran services. Any American looking for work can 
walk through the doors of an American Job Center, visit our Web 
site for all the information and help and assistance they need 
to get started. That includes veterans.
    American Job Centers provide a wide range of career and 
training services for all job seekers, including career 
counseling, career planning, resume assistance, job placement, 
education and training, including OJT and apprenticeship, and 
access to referrals for numerous other services. And American 
Job Centers offer veterans and eligible military spouses 
priority of service for all of our DOL-funded programs.
    American Job Centers also house business services teams 
that go out and do outreach with employers in the community, a 
critical part of our job-driven training strategy. And they 
often partner with local veterans employment representatives in 
that outreach to offer a range of employer services, including 
outreach and development of new OJT opportunities and 
registered apprenticeship. These staff help match DOL OJT 
participants to employers and employers can get between 50 and 
75 percent reimbursement on a trainee's wages in order to 
reimburse some of the extraordinary costs associated with 
training new staff.
    DOL has prioritized OJT strategies because we know they 
work. We have been using them for over 15 years in the local 
workforce system. It significantly increases the chances of 
finding work and leads to better retention and higher average 
wages.
    As part of our outcome measures, States are required to 
report using wage records on employment, retention rates, and 
post-program earnings. In program year 2013, almost 85 percent 
of the veterans who participated in our OJT programs were 
employed in the first quarter after exiting the program, almost 
90 percent retained those jobs after 6 months, and the 6-months 
earning average for veterans on OJT was more than $17,000, 
close to about $35,000 per year.
    In 2014, approximately 2,000 veteran apprentices completed 
their apprenticeship in the 25 States managed by DOL. But DOL 
does not track employment outcomes specifically for veterans in 
apprenticeship programs. We do aggregate that data. And over 91 
percent of our apprenticeship participants who completed their 
apprenticeship were employed in first quarter after exiting the 
program. Just as importantly, a high number of participants, 91 
percent, completed their apprenticeship and remained in those 
jobs for 6 months. The 6-months average earnings for these 
participants was roughly $30,000 or $60,000 per year, which is 
higher than our average participant in other workforce 
development programs.
    One successful veteran is a fellow by the name of Dan 
Healy. Dan was a Marine. He was a machinist. He went to our Web 
site to get information on these services. He ended up at 
Sebewaing Tool, an engineering company in Michigan, and he was 
very successful in transferring his military skills to an 
apprenticeship. The opportunity gave him and his family 
opportunities, gave his employer a very good employee for the 
long term.
    The President has challenged us to double and diversify the 
number of apprenticeships, ensuring that more Americans from 
all backgrounds benefit from this proven training model. And we 
have increased by 70,000 the number of apprenticeships over the 
last year and a half.
    In 2014, we worked closely with the VA to develop a 
streamlined system for the GI Bill that General Worley already 
talked about. We look forward to continued collaboration with 
them.
    And, finally, the President's fiscal year 2016 budget also 
proposes to spend $100 million to expand American 
apprenticeship grants to support the efforts of States, 
employers, and enhance apprenticeships across the country, and 
that will certainly benefit the veterans that we serve in our 
local service system.
    So thank you for the opportunity to appear before you 
today. I would be please to respond to any questions.

    [The prepared statement of Eric Seleznow appears in the 
Appendix]

    Mr. Wenstrup. Thank you all very much for your testimony 
here. I appreciate that.
    Mr. Seleznow, let me just start with you, because that was 
a lot of information you packed into 5 minutes and I appreciate 
that. And you are getting good data, you are acquiring good 
data, and you are really being able to estimate the outcomes.
    How far out do you go typically? I mean, I know it is hard 
to track people for the rest of their lives. But, you know, to 
find out are you still employed 5 years later or 3 years later, 
how far are you able to go?
    Mr. Seleznow. Typically our first check-in is 6 months 
after completion of a program. So we might be working with 
somebody for 6 months or maybe working with him a year. Through 
an apprenticeship program, it could be 2, 3, or 4 years. So 6 
months after completion of the program is the first check. And 
we can also do it at 4 quarters after exit as well. We usually 
do it the second quarter after exit and we do it at the fourth 
after exit.
    Mr. Wenstrup. But usually not beyond a year.
    Mr. Seleznow. Not beyond a year in most cases, except for 
research and evaluation purposes. We have a robust Chief 
Evaluation Office where we are looking at a lot of these 
programs. So it is possible to look farther beyond that.
    Mr. Wenstrup. Yes. So if you can get it at 6 months, would 
it be pretty easy to get it at a year or 2 years?
    Mr. Seleznow. A year, yes. Any more than that, I wouldn't 
be the expert in the data collection strategies. We could get 
that for you, whether we have the possibility to do that. I am 
sure we have some capacity.

    [The attachment appears in the Appendix]

    Mr. Wenstrup. I was just wondering if the methodology 
allowed for that, because that is good information, you know. 
Obviously 6 months is nice, but, you know, we would love to 
know where you are 5 years from now and that type of thing.
    As far as getting people aware of the program, I get the 
challenge. I mean, TAP is in overload, right? So how do you get 
in the process anywhere where somebody will say, Oh, how could 
you miss the OJT component of what there is to offer? And that 
is a challenge, and so I want to ask you about that. We heard 
some ideas, Facebook and this and that. But how can we really 
get more people involved, considering that there is a lot of 
information being put out to veterans as they come out? How can 
you find yourself standing out? If anybody wants to take that 
question.
    Mr. Wescott. I will start, Mr. Chairman.
    General Worley. I think it takes a breadth of avenues to do 
that. I mean, it starts with the information we send to 
servicemembers in the period before they actually transition. 
Then it goes into TAP where, as I mentioned, there have been 
enhancements in the Benefits I briefing. But, again, it is not 
like there is 20 pages dedicated to OJT in Benefits I because 
so much is required to be put into that briefing.
    The career technical track has also been enhanced. There 
are several, much more discussion about apprenticeships and OJT 
in the career technical training. Of course, that is an 
optional track that a veteran needs to choose to do. But it is 
being used quite significantly.
    And then it becomes a matter of all the other things that 
we try to put out there with respect to the breadth of 
opportunities, the incredible breadth of opportunities that the 
GI Bill provides, from institutions of higher learning all the 
way to the vocational schools to OJT/apprenticeship, 
correspondence, flight, all those avenues, to give them their 
just due, if you will, with respect to the representation of 
them on our Web sites.
    Mr. Wenstrup. Just for a second, let me ask you, do we 
require any kind of a survey after TAP or at the end of TAP 
where maybe we ask some questions, do you feel you understand 
this, do you feel you know where to look for this information?
    General Worley. I am not the expert on the post, the 
checkup of TAP. But I will tell you that the DoD and VA, as you 
know, have been working significantly on TAP for many years. 
And part of the discussion that has been, that I have been a 
part of as well to some degree, is exactly what you are talking 
about, measuring the effectiveness of TAP overall with respect 
to, in my case, the education piece. Do people who go to TAP, 
for example, choose the education option or go one way or 
another?
    And these are measures that are not in place yet that 
require a significant amount of data sharing and interface 
between DoD and VA. But those discussions are going on and we 
are making progress, but it will be some time, I believe, 
before we will have those kind of measures in place.
    Mr. Wenstrup. Maybe a simple survey after people complete 
TAP to really see how much they picked up. You know, not a 
pass/fail, no one can fail, but you get information from that.
    Going to the costs and modernization and things like that, 
I mean, it doesn't cost more to do email. It doesn't cost more 
to go online. It costs more to snail mail things. It costs more 
to fax things. And it delays things.
    I did appreciate when you talked about having one 
enrollment form. You know, we have got to look at what we can 
do to make it easier for people that want to participate. And 
that has come out today, and I hope that we continue to pursue 
that. But I am not necessarily buying that we need more funding 
for this to simplify the process. Actually simplifying it 
should reduce costs.
    And I really want to see us going in that direction. I 
don't think there is any reason why we can't. I mean, every one 
of us does far less snail mail in our life because we can go 
online and do these things that cost us nothing. It saves us 
the stamp. It saves us the paper. We can do that on a larger 
scale and we need to do that.
    But I do see great potential here, and I want to keep 
pushing in this direction and follow-up with you again to see 
where we are. I commend GAO for the report that you gave us 
because it is very constructive information on how we can move 
forward and do a better job for our veterans, which of course 
is our goal.
    And with that, I yield back. Mr. Takano, you are 
recognized.
    Mr. Takano. Thank you, Mr. Chairman.
    One of the VA programs that has really impressed me the 
most recently, and I think also our Chairman, is the VetSuccess 
on Campus, or VSOC, Program, where students have access to 
counselors.
    Do veterans choose to use their GI benefits to pursue OJT 
or apprenticeships rather than attending college have access to 
similar guidance by a counselor or mentor and access to a 
similar community that they might have, say, on a campus vet 
center? Is there a similar sort of support system for veterans 
who seek the OJT track?
    General Worley. Not specifically, Congressman Takano. 
Obviously, the VetSuccess on Campus office and those counselors 
are there to serve the folks that are in the academic programs 
there. There isn't a corollary focused counselor per se just 
for OJT and apprenticeships.
    Mr. Takano. Okay. Thank you.
    Dr. Wescott, the State approving agencies, can you tell me 
just how much the State of California participates? Or any of 
the panelists who would know how much California participates 
in this program?
    Mr. Wescott. I would have to get back to you on that.
    Mr. Takano. Okay. That is fine.

    [The attachment appears in the Appendix]

    Mr. Wescott. I apologize.
    Mr. Takano. One of the areas that we are all facing 
challenges in is replenishing the number of our building 
tradesmen in our building trades, right? And I know that the 
building trades unions invest a lot of their own resources into 
training centers. I personally toured a carpenters' training 
facility not far from my district. To what extent do the trades 
participate in these sort of programs for the veterans, the 
OJT?
    Mr. Wescott. Well, there is a great deal of participation, 
you know, carpentering, plumbing, electricians. Programs are 
set up for all of those. And that is one area where we are 
anxious to be more involved, is in outreaching to those unions 
and reaching out to those individuals who are participating in 
that.
    I mentioned, you know, the Missouri CD that is shared. But 
also, like in our State of Illinois, in that State they have 
336 approved and active-apprenticeship and OJT facilities. They 
have a vigorous outreach program where if they are out visiting 
with an employer that is training electricians and there is 
another employer close by, we might go and visit with that 
particular employer and tell them about the program and the 
opportunity that veterans who are employed there might have to 
be engaged in it.
    Ohio is providing briefings to the Ohio State 
Apprenticeship Annual Conference and sits as an adviser on 
their State Apprenticeship Council.
    So there are these opportunities to provide outreach. We 
want to do more to the various sorts of people and careers you 
mentioned.
    Mr. Takano. So, for instance, the kind of centers I am 
talking about, like the carpenters training center that is run 
by the carpenters union, you would like to see more 
participation?
    Mr. Wescott. Exactly.
    Mr. Takano. How can we do that? What are the steps to take, 
or what are the things standing in the way to our getting that 
participation?
    Mr. Wescott. Well, I would think certainly one of the 
things that we would like to do is to have the opportunity to 
actually send a program specialist or consultant out to that 
center and meet with those directors and talk about the 
opportunities that veterans could have. Because one of the sad 
things that occurs and has occurred in recent years is veterans 
just aren't aware, especially in those type of settings.
    One of the things that NASAA has done is we have even 
become engaged with certain certifying official associations so 
that even school officials could become aware of the fact that 
we have this other path to a job in the GI Bill, another 
opportunity for veterans beyond the education setting.
    Mr. Takano. Any other comments?
    Mr. Seleznow. So in our national apprenticeship program, we 
work with building trades and we are trying to diversify into 
other fields, like IT, cybersecurity, health care, and really 
expand apprenticeship. You know, there is the helmet to 
hardhats program, wounded warrior programs, vets in piping 
programs, some of our national partners who we very much like 
to work with--
    Mr. Takano. Well, the helmets to hardhats program, for 
example, does that interface at all with this veterans' program 
at all? Is there any interface?
    Mr. Seleznow. I don't know about their particular programs. 
We meet with them. We are briefed with them. We do work with 
them, either our Veterans Employment and Training office or on 
the local or State level on apprenticeship or reaching out to 
employers.
    Mr. Takano. All right. Well, thank you, Mr. Chairman. I 
yield back.
    Mr. Wenstrup. Mr. Coffman, you are recognized for 5 
minutes.
    Mr. Coffman. Thank you, Mr. Chairman.
    Mr. Sherrill, just one question. I know in my State of 
Colorado that it is very difficult for--first of all, the 
awareness among veterans leaving Active-Duty is almost zero 
about this program. And then when employers do need veterans, 
such as someone who was a Humvee mechanic into an auto mechanic 
in a service department, it is just so difficult to navigate 
this program.
    It would seem to me that you have got two, the Department 
of Labor and you have got Dr. Wescott's group, that one of them 
should be contracted with in terms of the implementation of 
this and probably even the reimbursement. Can you comment on 
that?
    Mr. Sherrill. Well, the State approving agencies do for the 
most part handle the outreach for the program at the State 
level. VA does do some of the outreach at the Federal level. 
Here is a quote from a veteran that participated in one of 
these programs: ``This is a hidden program that should be more 
prominent in availability. I would not have known I could use 
the OJT program if not for word of mouth from another 
employee.'' And we found a lot of veterans saying word of mouth 
is how they heard about it.
    Now, in terms of some of the things that veterans told us 
might help would be learning about the program during 
recruitment as a possibility. Some of the veterans also said 
that having more concrete examples would be helpful, not just 
knowing a program exists for OJT and apprenticeship, but 
concrete examples of how veterans have used the program, and 
highlighting those kinds of things.
    Mr. Coffman. I went through the Vietnam Era GI Bill, served 
one enlistment in the United States Army. And what I know or 
remember, in comparison to the veterans now, is we were a 
younger population, less likely to have families. I think the 
veterans coming out today are older, better educated, more 
likely to have families, more likely to want to go to work 
directly into employment and, in my view, utilize one of these 
programs. And the numbers ought to be much higher than they 
currently are.
    Dr. Wescott, can you comment on what role, an enhanced 
role, I think, that your organization might be able to play to 
expand this opportunity in terms of maybe a contractual 
relationship with the VA or a stronger one?
    Mr. Wescott. Certainly, Mr. Coffman, and welcome the 
opportunity to do so.
    First off, we need funding for outreach. We need a line in 
our contract that allows us to actually perform some of these 
marketing functions at the local area. We want to reach out to 
veterans. We want to do it by way of bulletins, by, again, 
connecting on a more regular basis with the other agencies that 
serve this population, making additional stops, add-a-stops we 
call them, so that we can actually talk to folks who might be 
interested in this program.
    I agree that we are missing an opportunity with a more 
mature population coming out today who may already have degrees 
and are now looking for a job opportunity. And this is a great 
program to connect them with that.
    Mr. Coffman. Mr. Seleznow, I wonder if you can comment on, 
could you see a greater role for the Department of Labor in 
terms of doing this?
    Mr. Seleznow. Yeah. Particularly one observation just about 
TAP, for example, because I used to work with veterans through 
our American Job Center with TAP. They have a lot on their 
minds when they are transitioning through and so it may be 
mentioned and they are not always remembering that because 
there is just so many things as they transition back to their 
community. So I think what we can do to help is to continue to 
reinforce that in our American Job Centers, through our LVER 
outreach people and all of our workforce staff to help increase 
that outreach and participation.
    Our Web site is pretty robust when it comes to veterans. 
You can sort of get to a lot of different places when you get 
to our vets apprenticeship one-stop. We do a lot of marketing 
and outreach with that.
    And also I am just reminded that our U.S. Military 
Apprenticeship Program, also serves 95,000 military apprentices 
today who when they do transition out of the military we can 
work with them on getting reconnected in their communities.
    Mr. Coffman. So what funding source? So you don't tap into 
the Post-9/11 GI Bill, though, when you do that. That is a 
separate program.
    Mr. Seleznow. That would be separate for when they are in 
the military. But certainly when they get out, we really 
enjoyed that connection with VA to utilize the GI Bill. I think 
our employers like it, our apprentices like it. I think it is a 
great connection.
    Mr. Coffman. General Worley, how long have you been in this 
position?
    General Worley. I have been in this position since April of 
2012, sir.
    Mr. Coffman. April of 2012. So tell me about why you have 
not moved to electronic communications at this point.
    General Worley. I guess to go back a little bit 
historically, it is symptomatic, I would say, sir, of the 
individual stovepipe technology systems that we have that we 
are operating today. As you know, Public Law 111-377 is where 
the Post-9/11 GI Bill began to be able to do OJT and 
apprenticeships starting in October of 2011. At that time, we 
were in the middle of the development of a long-term solution 
and we had to, because of that law and being able to implement 
it, there was a significant revector of the development. But 
all of that had to do with the processing of claims.
    An OJT and apprenticeship claim, once it is put into the 
system, is processed by the Long Term Solution that was 
developed over the last 3 or 4 years, but the upfront piece is 
a completely different system in schools called VA-ONCE, a 
system by which schools submit their enrollment data.
    Mr. Coffman. It is unacceptable. I think you would agree 
that it is unacceptable.
    General Worley. Yes, sir.
    Mr. Coffman. And the fact that people have to--the 
employers have to kind of reapply to the process and it is 
burdensome.
    It is amazing to me how somebody can come from the private 
sector into the VA, like Secretary McDonald or yourself from 
the United States Air Force, as a leader in the Air Force, and 
all of a sudden fit right into this culture. Because if this 
were a report that came down on your organization in the United 
States Air Force, you would be relieved. But yet it is all 
acceptable here.
    I yield back, Mr. Chairman.
    Mr. Wenstrup. Mr. McNerney, you are recognized for 5 
minutes
    Mr. McNerney. I want to thank the Chairman.
    General Worley, would a partnership between the VA and the 
VSOs or the Department of Labor, would that benefit the 
outreach program and the spread of information on the OJTs?
    General Worley. Yes, Congressman. I think stronger 
partnerships would. We have partnerships with the Department of 
Labor and very strong partnerships with the VSOs and with our 
State approving agencies. More focus on outreach with respect 
to OJT and apprenticeship programs is an opportunity that is 
there and we will pursue that in the future.
    Mr. McNerney. Do you see a pathway to improve those 
partnerships?
    General Worley. Yes, sir.
    Mr. McNerney. Can you explain it?
    General Worley. Well, I mean, just the testimony that my 
partner here from the Department of Labor has given provides 
opportunities that we can talk about with respect to outcome 
measure databases, how we measure things, and outreach through 
their American Job Centers.
    Mr. McNerney. Well, you said that the VA is considering 
gathering postgrad data. It is not doing that now?
    General Worley. The focus in implementing the executive 
order and Public Law 112-249 has been to focus on the 
institutions of higher learning and vocational schools. So the 
outcome measures that we have for the first time published back 
in September have to do with 2-year schools, 4-year schools, 
and vocational schools.
    So we believe that these outcome measures are important for 
OJT and apprenticeships. We don't measure post-graduation 
information yet, but we are exploring those avenues with the 
Department of Education and we will pursue those with the 
Department of Labor.
    Mr. McNerney. Is there enough data, is there enough 
postgrad data to be significant? Or is it mostly just ad hoc at 
this point?
    General Worley. With respect to employment or salaries or 
what?
    Mr. McNerney. Outcomes of the--
    General Worley. We have data, we have completion data on 
those going to school. We would need to develop ways to collect 
that information with respect to OJT and apprenticeship 
completion and then post-completion success in their 
employment.
    Mr. McNerney. Dr. Wescott, you mentioned that you would 
need funding to do additional outreach. Are there private 
sources? I mean, you are going to be helping employers 
potentially, right, by training folks. Is there private money 
that would be useful or available or accessible somehow?
    Mr. Wescott. Well, Congressman, I am not sure about that. 
But certainly we would love to have the time and opportunity to 
seek some of that out. We do work closely with our universities 
and colleges, et cetera, in our States when we are talking 
about approving programs. Certainly being able, being given the 
time and the opportunity to work more with employers, we might 
be able to make some connections whereby we could look at some 
type of State government connection between us and employers.
    The other thing that we would, of course, look for the 
opportunity to do is to work with the State Veterans Affairs 
agencies in our States in these areas as well. But as far as 
awareness of any funding at the present time, I am not.
    Mr. McNerney. So you need money to find out if there is 
money?
    Mr. Wescott. Well, not so much the need of money, but if we 
could spend a little more time in the apprenticeship and OJT 
world, we might could increase our marketing.
    Mr. McNerney. Okay. Mr. Seleznow, you mentioned the 
workforce development act. Are there provisions in there for 
GIs or for veterans specifically?
    Mr. Seleznow. Yeah, the Workforce Innovation and 
Opportunity Act that was signed last July calls out, eligible 
veterans, military spouses, certain eligible military spouses, 
and it calls out apprenticeship programs. It also talks about 
OJT. So all of these things are within our authorized 
activities under the Workforce Innovation and Opportunity Act.
    Mr. McNerney. So are you able to follow through with those 
requirements?
    Mr. Seleznow. Yeah. I mean, our system is a State and 
Federal local partnership. So you have the local workforce 
boards and the American Job Centers that are providing these 
services at the local level. There is our local veterans 
employment representatives and disabled veteran outreach 
workers in those working hand in hand with our State staff and 
local staff.
    It is sort of a customized program when people walk in the 
door. Not everybody needs an apprenticeship or an OJT program, 
right? We do some classification, some sorting, and referring 
people to the appropriate treatment, the appropriate tool, or 
the appropriate effort, especially for veterans that walk in 
those centers.
    Mr. McNerney. Mr. Chairman, I yield back.
    Mr. Wenstrup. Thank you.
    Mr. Costello, you are recognized for 5 minutes.
    Mr. Costello. Thank you, Mr. Chairman.
    Can you tell us why there was a short CD that was once 
promoted in the OJT and Apprenticeship Program and my 
understanding is, that is no longer being handed out in TAP 
classes? Is that correct? And if it is, could you share why 
that is?
    Undergirding that question is the concern that there might 
be so much contained in the TAP classes that part of the reason 
why people aren't aware is because of just how much is consumed 
or absorbed in the TAP class. There is probably like three or 
four questions in that one question.
    General Worley. I don't think the timing of the video was 
such that--I think that was pre-TAP. I would defer to the State 
approving agencies.
    Mr. Costello. The CD was?
    General Worley. If it was developed after TAP, then I will 
have to take that for the record, Congressman. I don't know the 
reason why we may or may not have distributed that video.

    [The attachment appears in the Appendix]

    Mr. Wescott. I think I can speak some to that, Congressman. 
Certainly prior to the new Transition Assistance Program being 
developed, State approving agencies were more involved in the 
actual TAP briefings. And so there was that opportunity for us 
to share some of the promotional materials that we had.
    When that was restructured--at the present time I am not 
aware of any State approving agencies that are involved in the 
TAP briefings. That is all completely run by the, I assume, DoD 
and VA or the Federal partners. So I assume that is when this 
occurred, was when we no longer had the opportunity to be 
involved in those briefings and we were no longer able to share 
that CD such as the one I mentioned.
    Mr. Costello. Thank you. I yield back.
    Mr. Wenstrup. Miss Rice, you are recognized for 5 minutes.
    Miss Rice. Thank you, Mr. Chairman.
    General Worley, I just want to continue along the lines of 
my colleague, Mr. Coffman, because I think he makes a really 
excellent point. There have been people from the private sector 
who have been very successful in other endeavors coming to, 
being brought to the VA to see if they can kind of change the 
inept culture. I don't think that is too descriptive a word, I 
think it is pretty accurate.
    So what is it about, just to continue along the lines of 
Mr. Coffman's question, what wall did you hit in terms of being 
able to implement that system?
    General Worley. Congresswoman Rice, I would challenge the 
description of inept culture with respect at least to the 
education side of what we do. When I started the job in 2012, 
in September 2012, our pending log without full automation was 
over 200,000. By the time we implemented the full automation of 
Long Term Solution, today our average pending workload is in 
the 30,000 range, as we speak today. Timeliness has gone from a 
month for an original claim to 11 or 12 days. For a 
supplemental claim, timeliness has gone from 18 or 19 days to 
6. There has been huge, huge advancement with respect to 
automation and processing of claims.
    What we are talking about is one specific program, OJT and 
Apprenticeship, which does not have the entry technology 
capability for submitting the information electronically today. 
The form can be accessed online and filled out online.
    The law requires that there be two certifications on that 
form certifying the hours that the employee worked. That is the 
employee's signature and the employer's signature. And there is 
PII in this certification. So you have a situation where you 
have to have the proper security setup to do this 
electronically. That will happen when we have VA-CERTS 
implemented in 2017. But until that time, it is a paper 
process, sent in and faxed.
    Can we do that by email? Yes, ma'am, we can. And we are 
going to pursue both that option and other ways to relieve some 
of the administrative burden going on with respect to this 
program in the meantime. But when we get to the VA-CERTS, which 
is an upgraded system that we have on contract under 
development today, that should be completed by early 2017, we 
will have a full electronic way of submitting the hours and we 
won't have this paper process anymore.
    Miss Rice. Mr. Sherrill, is there any aspect of your report 
that looked into DOL or was it just VA-based?
    Mr. Sherrill. Our report did include looking at Department 
of Labor with regard to the element of measuring performance, 
because since we didn't have any data from VA on the OJT and 
apprenticeship programs in terms of what we know about how well 
they are performing in terms of outcomes, we did look at 
Department of Labor data. And while the programs have some 
differences, for the Department of Labor's OJT and 
Apprenticeship programs, we did find that these models have 
shown the ability to demonstrate positive outcomes.
    For example, just to give you a few quick examples for 
Department of Labor OJT, the Department of Labor tracks 
outcomes for veterans. So for post-9/11 era veterans who 
received OJT, 85 percent of them entered employment within 3 
months of completing their on-the-job training and 86 percent 
of those retained employment over the next 6 months.
    This is a snapshot in time. Obviously, it is not 
necessarily representative of VA and its programs. But it does 
show the potential for these programs because we are really 
talking about job-driven training programs for both on-the-job 
training and apprenticeship really focusing to meet in-demand 
occupations, having certifications, and industry-recognized 
credentials that are really tied into what employers need.
    So there is a heavy promise here for these models of job 
training. That is why we think it is especially important. 
Since veterans under the GI Bill have choices to make about 
which options are best for them, having outcome data would 
really help inform veterans about what might be the best fit 
for them.
    Miss Rice. I couldn't agree more.
    Mr. Seleznow, recently I had the pleasure of hosting 
Secretary Perez out in my district. And I thank the Secretary 
and really your entire Department for your passionate support 
of on-the-job training. We were actually looking at an 
apprenticeship program at a specific project in my district.
    So the fact that there are distinctions at all between DOL 
and VA as it relates to on-the-job training and apprenticeship 
programs, how can that be? And how do you coordinate better 
with the VA so that the quality of the services that are 
rendered by both Federal agencies are equivalent?
    Mr. Seleznow. So we have been doing both apprenticeship and 
OJT and a range of other workforce programs for a very long 
time. We have been doing our apprenticeship program since 1937 
and we have been trying to transform it over the last 2 years 
into the kind of program we want to see over the next 20 years, 
which is a big jump right now. And so apprenticeship is getting 
a lot of action across the country, a lot of the attention as a 
result of Secretary Perez's advocacy on that, as you know.
    Our OJT program we have done for 20, 25 years. It goes back 
to JTPA. Local areas do it. We do it by contract. We have a 
system across the country that has been trained in it for many 
years. We operate it differently than the VA, we have probably 
a lot different capacity to do that through our American Job 
Center, a one-stop system.
    But we have a cadre of people across the country who know 
how to do those at the local level. They are approved at the 
local level, sometimes they are approved at the State level, 
but it is done quickly and efficiently at that level and it 
goes into our robust data system.
    So we have just been doing it a lot longer. Happy to 
collaborate with General Worley and his folks about how to 
strengthen some of the things they do.
    We operate our programs a little bit differently, a little 
bit different, but I think there is a great example, a 
collaboration that we did with the GI Bill, an apprenticeship 
program, our outreach on that. I think it will yield great 
results and great benefits for the veterans who participate in 
it.
    Miss Rice. Well, I think that should be a high priority so 
we can ensure that whatever program a veteran is accessing is 
one that is going to help them and that there are measurable 
outcomes for that.
    Thank you all very much.
    I yield back, Mr. Chairman.
    Mr. Wenstrup. You know, I think that when it comes to the 
marketing side of things as far as with our troops, part of 
marketing is to get someone's attention. And there is no better 
way, and I think, General, you will agree, of having someone's 
attention when they are in uniform and mandated to do 
something. And so that would be the area where I think we focus 
on our troops and not afterwards. As far as employers, that is 
a different story and we can discuss that further at some time.
    But I do also want to recommend that if you find stumbling 
blocks that require some legislative proposals that need to be 
changed, then they need to be brought to our attention so we 
can work with you in trying to make things better.
    But if there are no further questions, you are all excused. 
But I do want to thank you all for being here today. I think it 
was a constructive conversation. We all have got some homework 
to do. And I look forward to getting back with you at another 
time.
    It is clear that this is an invaluable program for our 
veterans, it is something that guarantees them a job at the end 
of their training. I hope VA addresses GAO's recommendations 
and makes an honest effort to market this program to more 
veterans as they transition out of the military. I hope they 
strive to put an emphasis on tracking outcomes, that is, I 
think, very important for future participants as they recently 
have for other education programs.
    With that, I ask all Members have 5 legislative days to 
revise and extend their remarks and include any extraneous 
material in the record of today's hearing.
    Hearing no objection, so ordered.
    Mr. Wenstrup. If there is nothing further, this hearing is 
adjourned.

    [Whereupon, at 3:05 p.m., the Subcommittee was adjourned.]








                            A P P E N D I X

                              ----------                              

                 Prepared Statement of Andrew Sherrill
    Chairman Wenstrup, Ranking Member Takano, and Members of the 
Subcommittee:
    I am pleased to be here today to discuss our November 2015 report 
on the Department of Veterans Affairs' (VA) Post-9/11 GI Bill on-the-
job training (OJT) and apprenticeship programs. \1\ As the military 
draws down its forces over the next few years, tens of thousands of 
servicemembers are expected to transition into civilian life. To better 
prepare themselves for meaningful employment, many will seek 
educational and training opportunities, which include OJT and 
apprenticeship programs. Post-9/11 GI Bill benefits were initially 
available only for higher education, which may not be the best path for 
every veteran, but in 2011 provisions were enacted that expanded 
benefits to cover OJT and apprenticeships. \2\ For those who may not be 
interested in higher education, OJT and apprenticeships offer an 
opportunity to work full-time while training.
---------------------------------------------------------------------------
    \1\ GAO, VA BENEFITS: Increasing Outreach and Measuring Outcomes 
Would Improve Post-9/11 GI Bill On-the-Job Training and Apprenticeship 
Programs, GAO 16 51 (Washington, D.C.: Nov. 12, 2015).
    \2\ Post-9/11 Veterans Educational Assistance Improvements Act of 
2010, Pub. L. No. 111-377, Sec.  105(b), 124 Stat. 4106, 4113-17 (2011) 
(codified at 38 U.S.C. Sec.  3313(g)).
---------------------------------------------------------------------------
    Under the Post-9/11 GI Bill, veterans can receive benefits for an 
OJT program lasting from 6 months to 2 years, or for an apprenticeship 
as long as 36 months. \3\ In addition to the wages they earn from their 
employer as a trainee or apprentice, veterans who choose to apply their 
Post-9/11 GI Bill benefits to an eligible OJT or apprenticeship program 
receive a tax-free, monthly housing payment from VA. The amount of the 
benefit is based on the basic allowance for housing (BAH) paid to 
servicemembers. \4\ The Department of Labor (DOL) offers OJT services 
and a Registered Apprenticeship program separate from the VA Post-9/11 
GI Bill programs which follow similar models but differ from VA's 
programs in several key ways. For example, while all veterans who 
served for at least 90 days after Sept. 11, 2001 are entitled to Post-
9/11 GI Bill benefits, local workforce development staff must determine 
that DOL OJT participants-civilians and veterans alike-need additional 
services to obtain employment.
---------------------------------------------------------------------------
    \3\ 38 U.S.C. Sec.  3677(c)(2) and (3).
    \4\ 38 U.S.C. Sec.  3313(g)(3)(B)(i). Specifically, the law states 
that eligible veterans are to receive the equivalent of the BAH for a 
service Member with dependents in pay grade E-5. Military pay grades 
determine both the BAH, which varies by ZIP code, as well as basic pay 
while in the military.
---------------------------------------------------------------------------
    My statement summarizes the findings from our November 2015 report, 
which addresses (1) how selected veterans and employers have used the 
Post-9/11 GI Bill OJT and apprenticeship programs and to what extent 
the programs have been used; (2) to what extent VA and states have 
taken steps to inform veterans and employers about these programs; (3) 
what challenges veterans and employers reported facing in using the 
programs, and (4) to what extent VA has assessed the performance and 
effectiveness of the programs.
    For our November 2015 report, we analyzed VA program data, assessed 
their reliability, and determined they were sufficiently reliable for 
our purposes. We also reviewed relevant federal laws, regulations, and 
other documents. We surveyed state officials in all 44 states 
responsible for overseeing these programs. \5\ In addition, we 
conducted three non-generalizable surveys to collect information from 
(1) veterans, (2) employers and apprenticeship sponsors who have 
participated in the programs, and (3) veterans who received Post-9/11 
GI Bill benefits while enrolled in a non-college degree program, such 
as a trade school. We conducted site visits in 2 states and interviewed 
state officials from an additional 11 states selected to reflect a 
range in the number of OJT and apprenticeship programs and in 
geographic location. We also interviewed federal officials and staff 
from veterans service organizations. In addition, we analyzed VA and 
DOL website information, as well as VA and DOL outreach materials, to 
examine the extent to which they included information on the Post-9/11 
GI Bill OJT and apprenticeship programs. Lastly, we examined DOL 
outcome data for its related OJT and apprenticeship programs. We 
assessed the reliability of these data and found them sufficiently 
reliable for our purposes. A more detailed explanation of our 
methodology is available in our full report. The work upon which this 
statement is based was conducted in accordance with generally accepted 
government auditing standards.
---------------------------------------------------------------------------
    \5\ State Approving Agencies (SAA) are state agencies designated by 
the state's governor that evaluate, approve, and monitor education and 
training programs for the GI Bill. Not all SAAs are involved in the 
approval and supervision of apprenticeship and OJT programs; in some 
states the VA has this responsibility because those states chose not to 
contract with VA to administer aspects of the program themselves. VA is 
currently acting as the SAA for OJT and apprenticeship approvals in six 
states -- Alaska, Connecticut, Hawaii, Maryland, Rhode Island, and 
Vermont - and the District of Columbia.

    Veterans in Our Review Said the Post-9/11 OJT and Apprenticeship 
Programs Helped Them Transition to Civilian Life, but Relatively Few 
---------------------------------------------------------------------------
Veterans Have Participated

    In our November 2015 report, veterans we surveyed said the Post-9/
11 GI Bill OJT and apprenticeship programs have helped them transition 
to civilian life, but program data show relatively few veterans have 
participated. Most veterans who replied to our survey (125 of 156) 
cited more than one benefit to the program. Many specifically noted 
that receiving supplemental income helped them cover living expenses 
during their transition to civilian life (112 of 156). \6\ About half 
of the veterans responding to the survey (80 of 156) reported that the 
program allowed them to use their GI Bill benefits even though college 
was not a good fit for them. In addition, employers and apprenticeship 
sponsors who responded to our survey cited a number of benefits to 
participating, particularly those related to recruitment and retention.
---------------------------------------------------------------------------
    \6\ In 2015, this supplemental income ranged from $896 to $3,923 
per month for the first 6 months, depending on the location of the 
employer or apprenticeship sponsor.
---------------------------------------------------------------------------
    We also found that since OJT and apprenticeship benefits became 
available in 2011, about 27,000-or 2 percent-of the 1.2 million 
veterans who have received Post-9/11 GI Bill benefits have participated 
in these programs. Occupations among those most frequently pursued by 
participants were police officer and sheriff; correctional officer and 
jailor; truck driver; electrician; firefighter; air traffic controller; 
immigration and customs inspector; veterans service representative; 
carpenter; and plumber, pipefitter, and steamfitter.

    VA and States Provide Varying Levels of Information and Outreach to 
Veterans and Employers

    VA primarily provides information about the OJT and apprenticeship 
programs through mandatory Transition Assistance Program (TAP) 
briefings for transitioning servicemembers and on its website. \7\ 
However, these sources generally emphasize higher education and lack 
sufficient detail for veterans to reasonably understand how to use 
their GI Bill benefits for OJT and apprenticeships. For example, 
federal, state, and veterans service organization officials we 
interviewed identified TAP as one of the primary ways that veterans can 
learn about the Post-9/11 OJT and apprenticeship programs. However, out 
of 77 total pages in the TAP facilitator guide, and in briefing slides 
for the mandatory VA Benefits I and II courses, there is only one 
reference to the OJT and apprenticeship programs. \8\ In discussing 
Post-9/11 GI Bill benefits, the briefing slides generally refer to 
``education,'' ``tuition,'' ``school,'' and ``student,'' and do not 
refer to employers, OJT, or apprenticeship opportunities, although 
these options are also available. Similarly, we found the information 
provided on VA's Post-9/11 GI Bill web page and on its OJT and 
apprenticeship web page lacks enough detail for users to reasonably 
understand how to use their GI Bill benefits for the OJT and 
apprenticeship programs. The Plain Writing Act of 2010 \9\ established 
requirements for clear and meaningful communication with the public 
regarding any federal benefits, and federal standards for internal 
control state that management should ensure there are adequate means of 
communicating with external stakeholders when there could be a 
significant effect on the agency achieving its goals. \10\ Further, 
VA's strategic goals include empowering veterans to improve their well-
being, and managing and improving VA operations to deliver seamless and 
integrated support. \11\ If VA does not provide sufficient detail 
regarding the OJT and apprenticeship programs, veterans may not be able 
to fully understand these benefits, and VA may not be able to fully 
meet its goals of serving this population. We recommended in our 
November 2015 report that the Secretary of Veterans Affairs identify 
and implement appropriate, cost-effective actions to increase awareness 
of OJT and apprenticeship benefits under the Post-9/11 GI Bill. VA 
concurred and said it will develop a guide for employers and 
apprenticeship sponsors about Post-9/11 GI Bill OJT and apprenticeship 
benefits. VA also said it will publicize this guide and make it 
available on VA's GI Bill website. Further, VA said it will send 
veterans and stakeholders information on OJT and apprenticeship 
benefits via an email blast and by posting information to the 
Employment Center section of VA's eBenefits website.
---------------------------------------------------------------------------
    \7\ TAP was originally established by the National Defense 
Authorization Act for Fiscal Year 1991. Pub. L. No. 101-510, Sec. 
502(a), Sec.  1142, 104 Stat. 1485, 1552-55 (1990). The purpose of TAP 
is to prepare servicemembers leaving the military for their transition 
back into civilian life. It has recently been redesigned through the 
Veterans Employment Initiative and the VOW to Hire Heroes Act of 2011. 
Exec. Order No. 13,518, 74 Fed. Reg. 58,533 (Nov. 13, 2009) and Pub. L. 
No. 112-56, Sec.  221, 125 Stat.711, 715-18. The redesigned TAP is also 
known as Transition Goals, Plans, Success (Transition GPS).
    \8\ All servicemembers participating in TAP must take VA Benefits I 
and II courses, which discuss available benefits and services, 
including education benefits.
    \9\ Pub. L. No. 111-274, Sec. Sec.  3(3) and 4(b), 124 Stat. 2861, 
2161-62 (codified at 5 U.S.C. Sec.  301 note).
    \10\ GAO, Standards for Internal Control in the Federal Government, 
GAO/AIMD 00 21.3.1 (Washington, D.C.: Nov. 1, 1999).
    \11\ Department of Veterans Affairs, Department of Veterans Affairs 
FY 2014-2020 Strategic Plan.
---------------------------------------------------------------------------
    In addition, most state officials we surveyed reported that they 
reach out to veterans using direct methods, such as attending job fairs 
and providing briefings and presentations to veterans' groups. Fewer 
state officials reported using broader outreach methods, such as radio 
or television advertisements, to raise awareness of the programs. Some 
state officials said that they devote considerable staff time to 
outreach efforts. For example, a state program director in one state 
told us his agency created a video titled ``OJT: It's Not Just for 
College'' to distribute to stakeholders, a monthly newsletter on 
veterans' employment issues, and program fact sheets and brochures to 
be displayed in job centers and higher education veterans' offices. Our 
survey results also indicate that the level of outreach conducted 
varies by state. Specifically, officials in five states we surveyed 
indicated that, due to resource constraints, they were unable to engage 
in more intensive outreach efforts for veterans or employers.

    Lack of Program Awareness and Administrative Burdens Have 
Challenged Veterans and Employers, According to State Officials and 
Program Participants

    We also found that key challenges faced by veterans and employers 
in using the Post-9/11 GI Bill OJT and apprenticeship programs include 
lack of awareness and administrative burdens, according to state 
officials, veterans, and employers we surveyed. Most state officials 
surveyed reported that lack of awareness about the programs is a 
primary challenge they face in facilitating veteran (39 of 44) and 
employer (39 of 43) participation. In addition, most state officials 
(39 of 44) reported that veterans' lack of understanding regarding how 
they can use these benefits to pursue career goals was a top challenge. 
State officials we surveyed also cited some of the same challenges that 
we identified in our review of VA's information resources, as discussed 
above. For example, 36 of 44 responding state officials pointed to the 
emphasis on education in Post-9/11 GI Bill materials rather than on OJT 
or apprenticeship as a challenge in facilitating veteran participation.
    Further, over half of state officials surveyed (24 of 42) cited 
challenges related to VA's current paper-based payment processing 
system, which requires employers to fax or mail monthly forms to VA in 
order for a veteran to receive benefits (see fig. 1).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    In addition, 11 of the 15 employers and apprenticeship sponsors we 
interviewed said the process is burdensome or inefficient, and 7 said 
they often had to re-submit monthly certifications multiple times 
because VA officials said they had not received them. Six of the 28 
veterans we interviewed said their benefits have sometimes been 
delayed. VA is developing a new data system, called Veterans Approval, 
Certification, Enrollment, Reporting and Tracking System (VA-CERTS), 
which will update the systems for certifying program approvals and 
monthly hours worked, and for processing educational benefits, 
including those for OJT and apprenticeship, according to VA officials. 
However, VA officials said this system may not be implemented until 
2017 at the earliest. In the interim, administrative challenges could 
hinder program participation. We recommended in our November 2015 
report that the Secretary of Veterans Affairs identify and implement 
cost-effective steps to ease administrative challenges in submitting 
paperwork or receiving payments as the new automated VA-CERTS system to 
process program approvals and benefit payments is being developed and 
implemented. VA concurred and stated it will explore the feasibility of 
cost-effective options and will develop a plan to ease challenges for 
employers and veterans to submit paperwork and receive payments.

    Little Is Known about the Performance of VA's OJT and 
Apprenticeship Programs

    In addition, we found little is known about the performance of VA's 
Post-9/11 GI Bill OJT and apprenticeship programs because VA does not 
measure program outcomes, such as whether participants retain 
employment after completing the program. Federal standards for internal 
control call for establishing and reviewing performance measures to 
allow an agency to evaluate relevant data and take appropriate actions. 
\12\ Without such measures, VA is limited in its ability to assess its 
programs. We recommended that the Secretary of Veterans Affairs 
establish measures to report on program outcomes for Post-9/11 GI Bill 
OJT and apprenticeship programs, including considering relevant data 
sources and seeking legislative authority to gain access to data, if 
necessary. VA concurred and said program performance metrics should be 
developed to report on program outcomes. VA said it will develop a plan 
to determine the feasibility of collecting and publishing program 
outcome data for the OJT and apprenticeship programs. VA set a target 
completion date of June 2016 for all actions set forth in response to 
our recommendations.
---------------------------------------------------------------------------
    \12\ GAO, Standards for Internal Control in the Federal Government, 
GAO/AIMD 00 21.3.1 (Washington, D.C.: Nov. 1, 1999).
---------------------------------------------------------------------------
    Given the absence of performance measures for VA's programs, we 
examined DOL outcome data for its related OJT and apprenticeship 
programs. The data indicate the potential for positive outcomes for 
these training models. For example, according to 2013 DOL program data, 
85 percent of Post-9/11-era veterans who received OJT services entered 
employment within 3 months of completing their training, and 86 percent 
of these veterans retained employment over the subsequent 6 months. 
Additionally, Post-9/11-era veterans who used OJT services earned 25 
percent more in the second and third quarters after finishing their OJT 
services than they had earned prior to receiving services. While these 
data indicate the potential for positive employment outcomes for an OJT 
approach, they do not necessarily reflect outcomes for veterans in VA's 
programs.
    Chairman Wenstrup, Ranking Member Takano, and Members of the 
Subcommittee, this concludes my prepared remarks. I would be happy to 
answer any questions that you may have.

    GAO Contact and Staff Acknowledgments

    For further information regarding this testimony, please contact 
Andrew Sherrill at (202) 512-7215 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="52213a3720203b3e3e331235333d7c353d247c">[email&#160;protected]</a> Contact points 
for our Offices of Congressional Relations and Public Affairs may be 
found on the last page of this statement. Individuals who made key 
contributions to this testimony include Laura Heald (Assistant 
Director), Susan Aschoff, James Bennett, Mindy Bowman, Amy Buck, David 
Chrisinger, Sheila McCoy, Jean McSween, Almeta Spencer, Michelle Loutoo 
Wilson, and Craig Winslow.

    This is a work of the U.S. government and is not subject to 
copyright protection in the United States. The published product may be 
reproduced and distributed in its entirety without further permission 
from GAO. However, because this work may contain copyrighted images or 
other material, permission from the copyright holder may be necessary 
if you wish to reproduce this material separately.

    GAO's Mission

    The Government Accountability Office, the audit, evaluation, and 
investigative arm of Congress, exists to support Congress in meeting 
its constitutional responsibilities and to help improve the performance 
and accountability of the federal government for the American people. 
GAO examines the use of public funds; evaluates federal programs and 
policies; and provides analyses, recommendations, and other assistance 
to help Congress make informed oversight, policy, and funding 
decisions. GAO's commitment to good government is reflected in its core 
values of accountability, integrity, and reliability.

    Obtaining Copies of GAO Reports and Testimony

    The fastest and easiest way to obtain copies of GAO documents at no 
cost is through GAO's website (http://www.gao.gov). Each weekday 
afternoon, GAO posts on its website newly released reports, testimony, 
and correspondence. To have GAO e mail you a list of newly posted 
products, go to http://www.gao.gov and select ``E-mail Updates.''

    Order by Phone

    The price of each GAO publication reflects GAO's actual cost of 
production and distribution and depends on the number of pages in the 
publication and whether the publication is printed in color or black 
and white. Pricing and ordering information is posted on GAO's website, 
http://www.gao.gov/ordering.htm.
    Place orders by calling (202) 512-6000, toll free (866) 801-7077, 
or TDD (202) 512-2537.
    Orders may be paid for using American Express, Discover Card, 
MasterCard, Visa, check, or money order. Call for additional 
information.

    Connect with GAO

    Connect with GAO on Facebook, Flickr, Twitter, and YouTube. 
Subscribe to our RSS Feeds or E-mail Updates. Listen to our Podcasts 
and read The Watchblog. Visit GAO on the web at www.gao.gov.

    To Report Fraud, Waste, and Abuse in Federal Programs

    Contact: Website: http://www.gao.gov/fraudnet/fraudnet.htm
    E-mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c6a0b4a7b3a2a8a3b286a1a7a9e8a1a9b0">[email&#160;protected]</a>
    Automated answering system: (800) 424-5454 or (202) 512-7470

    Congressional Relations

    Katherine Siggerud, Managing Director, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f7849e9090928582939cb7909698d9909881">[email&#160;protected]</a>, (202) 
512-4400, U.S. Government Accountability Office, 441 G Street NW, Room 
7125, Washington, DC 20548

    Public Affairs

    Chuck Young, Managing Director, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="acd5c3d9c2cbcf9deccbcdc382cbc3da">[email&#160;protected]</a>, (202) 512-4800
    U.S. Government Accountability Office, 441 G Street NW, Room 7149
    Washington, DC 20548

                                 <F-dash>
              Prepared Statement of Dr. Joseph W. Wescott
    Introduction

    Chairman Wenstrup, Ranking Member Takano and Members of the 
Subcommittee on Economic Opportunity, I am pleased to appear before you 
today on behalf of the over 55 Member state agencies of the National 
Association of State Approving Agencies (NASAA) and appreciate the 
opportunity to provide comments on ``Examining VA's On-the-Job Training 
and Apprenticeship Program.'' We particularly look forward to 
discussing with you the Government Accountability Office report 
entitled, ``Increasing Outreach and Measuring Outcomes Would Improve 
the Post-9/11 GI Bill On-the-Job Training and Apprenticeship 
Programs.'' I am accompanied today by Mr. Dan Wellman, NASAA President. 
As a part of our review of the report, we will address the 
recommendations and outcomes of the report as well as suggest ways to 
make the programs more accessible to veterans and transitioning service 
Members.
    For hundreds of years, On-the Job and Apprenticeship type training 
has been an important means of educating family Members and new 
employees. In our nation's colonial era, two well-known examples of 
apprentices were Paul Revere and Benjamin Franklin. The impact of that 
training on their lives and upon our nation's history needs no 
explanation. Such impact continues today in the successful transition 
of our military service Members to civilian life. In fact, for those of 
us who served, OJT or ``hands on'' training played a critical role in 
our preparation as soldiers. You could read and discuss the assembly 
and disassembly of the M-16 A1 Rifle, but until you actually performed 
it, for most of us, it was a mystery. Hence, OJT and Apprenticeship are 
methods of training delivery that our military population are well 
acquainted with, and for many of them, the type of instruction from 
which they can best benefit.
    Mr. Chairman, we agree with the GAO that there are three main areas 
surrounding the OJT and Apprenticeship program that need improvement. 
They are Outreach, Administrative Challenges and Outcome Measures. We 
wish to address each of these separately.

    Outreach

    We strongly agree that outreach efforts need to be improved and we 
equally believe that State Approving Agencies can be a major part of 
the solution. SAAs are already a part of the process in that we approve 
and oversee all non-federal OJT and apprenticeship programs. With 
adequate funding or an adjustment in our contractual requirements, we 
can provide a more robust outreach to potential employers of veterans 
and their dependents. For example, from Fiscal Year 2008 until Fiscal 
Year 2011, SAAs, working with our VA partners, increased the number of 
approved Apprenticeship and OJT (APP/OJT) facilities with at least one 
active veteran or eligible dependent from 4,471 to 5,285. However, 
since then, due to our shared focus on oversight and constrained 
funding (SAA's have not had an increase in funding in the past 8 years 
and there are no outreach monies in our contract), the number of 
approved active facilities in FY 2015 was only 3,551, or 1,700 less 
than Fiscal Year 2011. In the past several years, we and our VA 
partners have focused heavily on oversight of institutions. This 
valuable work has been accomplished somewhat at the expense of our 
ability to provide outreach for the OJT and Apprenticeship Program. As 
you can see, during a time of unprecedented growth in the utilization 
of GI Bill benefits and interest in training providers to offer 
programs, our ability to approve programs, supervise facilities, and 
conduct meaningful outreach has been constrained by limited resources 
and our joint focus on oversight.
    Even in this constrained environment, SAAs have been creative and 
innovative in attempting to reach employers and veterans with the 
message that there is another path to employment for them in addition 
to college. And one that could prove equally rewarding. For example, 
the Missouri SAA under Director Chad Schatz produces a CD, aptly 
titled, ``The GI Bill-It's Not Just for College.'' This 8 minute CD 
reflects the perspective of the veteran, the employer, the VA and the 
SAA and it is used by many National Guard units, employers and SAAs 
across the nation. Prior to the recent restructuring of the Transition 
Assistance Program, this CD was a staple at many TAP briefings in the 
Central and Eastern regions. In addition, like many SAAs, Missouri 
publishes a monthly newsletter. And Missouri is not alone. Illinois, 
which had 336 approved and active apprenticeship and OJT facilities 
last year, has a vigorous outreach program involving add-a-stop visits 
to employers, along with presenting to statewide apprenticeship 
meetings and to every law enforcement and correctional officer academy 
class in Illinois. The Illinois SAA is also actively involved in 
Illinois Joining Forces, a consortium of employers, not-for-profit 
organizations, and state agencies interested in ensuring veterans make 
a successful transition from the military to the civilian world. They 
have also tied into the state of Illinois employment system identifying 
when veterans have been hired into state government jobs requiring a 
training program. The Ohio SAA performs outreach by sitting as an 
advisor on their State Apprenticeship Council and by providing 
briefings during the Ohio State Apprenticeship Annual Conference. 
Finally, NASAA has also worked closely with the certifying official 
organization, the Association of Veteran Education Certifying Officials 
(AVECO), seeking to connect the higher education community and 
employers with the VA APP/OJT program. Recent approval actions with 
national employers initiated by Member SAAs effecting many states 
include Edward Jones, General Dynamics, Union Pacific and Time Warner 
Cable.
    Mr. Chairman, we recommend that VA conduct national outreach 
efforts concerning these programs, while the SAAs should remain focused 
on state and local outreach efforts, which best meet the needs of their 
particular state. We would encourage the VA to place more emphasis on 
their website regarding the use of the GI Bill for APP/OJT 
opportunities. Likewise, we would suggest that outreach efforts by the 
VA and SAAs should focus on all current chapters of the GI Bill. In 
several states, such as Illinois, more veterans in APP/OJT programs 
ostensibly use other chapters such as Chapter 30, 1606 and 1607 rather 
than just Chapter 33, the Post 9/11 GI Bill. In certain instances, 
Chapter 30 provides a higher monthly benefit payment than the monthly 
housing allowance and books and supplies stipend provided under Chapter 
33. It is important to understand that what makes Chapter 33 more 
attractive at an IHL, the fact that the veteran's institution may 
receive payments for tuition and fees, is not a factor with OJT and 
Apprenticeship programs. We would also like to be able to conduct more 
supervisory visits, and indeed we have begun doing some. The phrase 
``Add-A-Stop'', developed by the Missouri SAA, refers to a practice 
used by SAA's for over 15 years. An ``Add-A-Stop'' is an extra stop to 
a potential APP/OJT facility while traveling to a currently approved 
education or training facility for approval or oversight purposes. This 
practice maximizes efficiency in travel costs while increasing the VA/
SAA footprint for the APP/OJT program.
    With increased resources and personnel, we would like to be able to 
visit each active On-the-Job or Apprenticeship training program on an 
annual basis. During these visits, we are able to discuss the approval 
of the program, the goals of the program, and assist programs with VA 
paperwork issues and veteran payment issues. We also speak to veterans 
enrolled in these programs, providing them with the opportunity tell us 
how their training is going or if they are having any issues with 
payments. Ultimately, supervisory visits strengthen outreach activities 
in the field of On-the-Job and Apprenticeship training programs, as 
these visits provide employers and veterans with the confidence to 
recommend this program to other employers and veterans.
    Additionally, current law limits the ability of SAAs to be 
reimbursed under their contract for outreach efforts unless it can be 
linked to a travel expense. Standard outreach and marketing strategies 
such as media advertising and social media advertising cannot be 
reimbursed. NASAA recommends 38 USC 3674 be modified to add an 
additional category of reimbursement for outreach and marketing.

    Administrative Challenges

    NASAA has long sought the automation of the APP/OJT process and 
claims processing. Hence, we strongly concur with the concerns raised 
in the GAO report regarding the need to ease administrative challenges. 
Automation would provide VA and SAAs with the ability to accurately 
track how many veterans are enrolled in approved APP/OJT programs and 
how many active APP/OJT programs (a program where a veteran has 
received a payment) are in the system. To illustrate the present 
situation, according to the GAO report, there were 2700 employers and 
apprenticeships sponsors approved to train Post 9/11 Bill veterans, but 
meanwhile there were over 3500 active approved facilities, roughly 
during this timeframe according to VA records. These numbers are 
submitted by SAAs and confirmed by the VA. This number also supports 
our earlier statement that many veterans enrolled in APP/OJT programs 
use other chapters of the GI Bill, not just the Post 9/11 GI Bill. 
Moreover, the VA frequently contacts SAAs to determine the name of a 
veteran in an APP/OJT program, as their manual systems for tracking 
veterans are so cumbersome to search. In the end, both of these 
examples illustrate the need for the VA to automate APP/OJT claims 
processing.
    NASAA recommends that until the VA is able to establish an 
electronic system for APP/OJT process and payments, the VA should 
consider reducing administrative burdens on employers with approved 
APP/OJT programs by allowing them to certify all veterans enrolled in 
the GI Bill program on one enrollment form, instead of separate forms 
for each veteran. The use of such a form would provide employers with 
immediate relief from the administrative burdens of the APP/OJT claims 
processing system. This sheet should be a protected form requiring only 
the certifying official's signature. The current form requires both the 
certifying official and veteran's signature, which has resulted in 
veterans acquiring the form, and in a few cases self-certifying 
themselves for benefits. Moreover, the use of such a form would reduce 
the amount of paperwork required to be processed by the VA. NASAA 
stands ready to implement a jointly administered pilot project in one 
of our larger APP/OJT states to test this suggested change in policy. 
However a reliable and valid automation system remains critical to the 
eventual improvement of this program.

    Outcome Measures

    While we understand the challenges the VA faces in developing 
outcome measures for this program, we concur with the GAO that outcome 
measures need to be developed. We would strongly recommend that the VA, 
as they have done in other areas, partner with NASAA in the development 
of these outcome measures. This would certainly be an opportunity for 
our collaborative Joint Advisory Committee, comprised of 
representatives from both VA and NASAA, to undertake and oversee this 
project. Once again, NASAA stands ready to implement a jointly 
administered pilot project in one of our larger APP/OJT states for this 
purpose. Such efforts would provide all stakeholders with solid data to 
see if the anecdotal evidence that already exists is true. That 
anecdotal evidence suggests when compared to other forms of education 
and training, those who engage in OJT and Apprenticeship programs have 
higher completion rates, higher placement rates, and higher retention 
rates. All at a fraction of the cost associated with many four-year 
degrees.

    Conclusion

    Mr. Chairman, the OJT and Apprenticeship programs under the various 
chapters of the GI Bill provide a tremendous opportunity to put our 
Nations veterans back to work immediately in meaningful and rewarding 
careers that are needed in our economy. We applaud the efforts of the 
GAO, this Committee, and our VA partners and stakeholders to increase 
outreach, improve administrative challenges, and develop outcome 
measures. We look forward to collaborating and partnering with our VA 
partners in support of many of these GAO recommendations.
    Today, fifty-five SAAs in 49 states (some states have two) and the 
territory of Puerto Rico, composed of approximately 175 professional 
and support personnel, are supervising over 10,000 active facilities 
with 100,000 programs (including over 3500 APP/OJT programs). We remain 
strongly committed to working closely with our VA partners, VSO 
stakeholders and education and training facilities to ensure that 
veterans have access to quality training programs delivered in an 
appropriate manner by reputable employers. For we all share one 
purpose, a better future for our veterans and their dependents. Mr. 
Chairman, I pledge to you that we will not fail in our critical mission 
and in our commitment to safeguard the public trust, to protect the GI 
Bill and to defend the future of those who have so nobly defended us.'' 
I thank you again for this opportunity and I look forward to answering 
any questions that you or committee Members may have.

                                 <F-dash>
        Prepared Statement of MG Robert M. Worley II USAF (Ret.)
    Good afternoon, Chairman Wenstrup, Ranking Member Takano, and other 
distinguished Members of the Subcommittee. I am pleased to be here 
today to discuss the Department of Veterans Affairs (VA) education 
benefit programs. My testimony will focus on VA's administration of on-
the-job training (OJT) and apprenticeship programs under the Post-9/11 
GI Bill.
    The Post-9/11 GI Bill (Chapter 33) was enacted with the passage of 
Public Law (P.L.) 110-252, and greatly expanded education benefits, 
effective August 1, 2009. The Chapter 33 program provides Veterans, 
Servicemembers, dependents, and survivors with educational assistance, 
generally in the form of tuition and fees, a monthly housing allowance, 
and a books-and-supplies stipend to assist them in reaching their 
educational or vocational goals. P.L. 111-377, which was signed into 
law on January 4, 2011, amended the Post-9/11 GI Bill by expanding 
eligibility for certain individuals, modified the amounts of assistance 
available, and increased the types of approved programs, which included 
OJT and apprenticeships. The Post-9/11 GI Bill is the most utilized of 
VA's educational assistance programs.

    Background on VA OJT and Apprenticeship Programs

    Both OJT and apprenticeship programs are available for Veterans 
using their VA education benefits under the Post-9/11 GI Bill. These 
programs allow Veterans to learn a trade or skill through training on-
the-job, instead of attending formal classroom instruction. A Veteran 
generally enters into a training contract for a specific period with an 
employer, and at the end of the training period, the Veteran gains job 
certifications or journeyworker status. Employers must pay Veterans at 
least 50 percent of the journeyworker wage at the start of the VA OJT 
or apprenticeship programs.
    Eligible Veterans pursuing training under Post-9/11 GI Bill, OJT, 
or apprenticeship programs receive a monthly housing allowance (MHA) in 
addition to their OJT or apprenticeship wages. The MHA is a percentage 
of the Department of Defense (DoD) Basic Allowance for Housing (BAH) 
for an E-5 with dependents (based on the location of the employer), 
payable at the rate of 100 percent of the MHA during the first six 
months of training; 80 percent during the second six months; 60 percent 
during the third six months; 40 percent during the fourth six months; 
and 20 percent during any remaining months of training. Participants 
also receive up to $83 per month for books and supplies pro-rated 
similarly to the MHA.

    Approval and Participation in VA OJT and Apprenticeship Programs

    The law provides that VA may pay educational assistance to Veterans 
and other eligible individuals while they pursue approved training 
programs. An OJT program may be approved if the requirements and 
approval criteria found in Section 3677 of Title 38 of the United 
States Code (U.S.C.) are met. The Department of Labor's (DOL) 
Registered Apprenticeships are ``deemed approved,'' as are those 
approved by recognized State Apprenticeship Agencies, subject to the 
requirements in Section 3672(b)(2)(A)(iii) of Title 38 U.S.C., and 
unregistered apprenticeship programs may be approved as long as the 
criteria in Section 3687 of Title 38 U.S.C. are met. State Approving 
Agencies (SAAs), that oversee education and training programs for 
Veterans, are responsible for approving non-Federal OJT and 
apprenticeship programs in their respective states, while VA has 
authority to approve OJT and apprenticeship programs offered by 
agencies of the Federal government.
    Approximately 1.5 million individuals used their Post-9/11 GI Bill 
education benefits since inception of the program in August 2009 
through fiscal year (FY) 2015. Approximately 35,000 Veterans pursued 
training through OJT or apprenticeship programs from FY 2012 through FY 
2015. About half of those Veterans participated in OJT opportunities, 
while the other half pursued apprenticeship programs. In FY 2015 alone, 
approximately 22,000 Veterans pursued training through OJT or 
apprenticeship programs.

    Partnership with Department of Labor

    In September 2014, VA and DOL sent a joint letter to approximately 
10,000 Registered Apprenticeship sponsors, encouraging them to recruit 
and hire Veterans into their apprenticeship programs. The letter 
informed them of the VA ``deemed approved'' status of any DOL-approved 
Registered Apprenticeship program, and provided information on the 
streamlined process to obtain approval through their SAAs. The letter 
also encouraged Registered Apprenticeship sponsors to include 
information in their job openings that the positions, upon approval by 
the SAA, are ``approved for the GI Bill.''

    Outreach

    VA has conducted two targeted online marketing campaigns since 2011 
to promote OJT and apprenticeship programs under the Post-9/11 GI Bill. 
Specifically, in 2011, VA conducted an online advertising campaign 
highlighting changes to the Post-9/11 GI Bill that were effective 
October 1, 2011, as a result of P.L. 111-377. These changes expanded 
the use of the Post-9/11 GI Bill to include OJT, apprenticeships, 
vocational flight, correspondence, and non-college degree training 
programs. Advertising was targeted to Veterans age 22 to 34 and 35 to 
45 who lived in Indiana, Michigan, Minnesota, Montana, and Tennessee - 
the states with the highest Post-9/11 Veteran unemployment rates at 
that time. Approximately 354,000 unique individuals visited the web 
page detailing those changes to the Post-9/11 GI Bill. The second 
campaign was conducted in 2013 and targeted the next five states with 
the highest Post-9/11 Veteran unemployment rates - California, Georgia, 
Illinois, Pennsylvania, and Texas. Over 76,000 people visited the web 
page during the second campaign.
    To help ensure that Servicemembers are aware of the OJT and 
apprenticeship opportunities, VA recently enhanced its Transition 
Assistance Program (TAP) curriculum. The curriculum includes the full 
spectrum of Post-9/11 GI Bill benefits that also covers OJT and 
apprenticeship opportunities. Additionally, VA enhanced the Career 
Technical Training Track (CTTT) in 2015 to provide Servicemembers an 
opportunity to utilize assessment tools to determine possible 
employment/career direction.
    VA will continue to enhance outreach efforts to individuals 
potentially eligible for the Post-9/11 GI Bill to promote OJT or 
apprenticeship training opportunities.

    GAO Report

    The draft GAO report, ``Increasing Outreach and Measuring Outcomes 
Would Improve Post-9/11 GI Bill On-the-Job Training and Apprenticeship 
Programs'' (GAO-16-51, November 2015), includes three major 
recommendations. First, it recommends VA identify and implement 
appropriate, cost-effective actions to increase awareness of OJT and 
apprenticeship benefits under the Post-9/11 GI Bill. Second, it 
recommends VA identify and implement cost-effective steps to ease 
administrative challenges in submitting paperwork or receiving payments 
as VA develops and implements its new system, VA-CERTS, to automate the 
processing of program approvals and benefit payments. Finally, it 
recommends VA establish measures to report program outcomes for OJT and 
apprenticeship programs under the Post-9/11 GI Bill, specifically 
noting that VA should consider relevant data sources and should seek 
legislative authority to gain access to data if necessary.
    VA agrees with these recommendations. VA is already taking action 
to implement the first recommendation to increase awareness of OJT and 
apprenticeship benefits under the Post-9/11 GI Bill. Specifically, VA 
is developing a guide to VA Benefits for OJT and apprenticeship 
programs for employers and sponsors. The guide will be published and 
available for viewing and download on the GI Bill website. Information 
on OJT and apprenticeship benefits will be provided to Veterans and 
interested stakeholders via a mass email notification and will be 
posted to the employers page of the Veterans Employment Center section 
of the eBenefits website.
    Additionally, VA will explore the feasibility of cost-effective 
options and will develop a plan to ease the administrative challenges 
for employers and Veterans to submit paperwork and receive payments 
until the new automated VA-CERTS system is in place.
    VA also agrees that program performance metrics should be developed 
to report on program outcomes for Post-9/11 GI Bill OJT and 
apprenticeship programs. Over the past three years, VA has actively 
collaborated with the Department of Education (ED) and the DoD to 
establish outcome measures for the Post-9/11 GI Bill in accordance with 
Executive Order 13607 (Establishing Principles of Excellence) and P.L. 
112-249 (Comprehensive Policy on Providing Education Information to 
Veterans). VA published initial outcome measures on graduation, 
retention, persistence, and transfer-out rates on its GI Bill website. 
VA, in collaboration with DoD and ED, is currently exploring the 
collection of post-graduation data related to employment rates and 
average salary for graduates. VA will determine the feasibility of 
collecting and publishing this data for OJT and apprenticeship 
programs. VA's target date for implementing GAO's recommendations is 
June 1, 2016.

    Conclusion

    Mr. Chairman, this concludes my statement. Thank you for the 
opportunity to appear before you today. I would be pleased to respond 
to any questions that you or the other Members of the Subcommittee may 
have.

                                 <F-dash>
                  Prepared Statement of Eric Seleznow
    Good afternoon, Chairman Wenstrup, Ranking Member Takano, and other 
distinguished Members of the Subcommittee. As Deputy Assistant 
Secretary for the Employment and Training Administration (ETA), I am 
pleased to be here today to discuss the Department of Labor's (DOL) 
apprenticeship and on-the-job training (OJT) programs, and how they 
assist veterans and transitioning service Members. Today's discussion 
is particularly appropriate as we just observed Veterans' Day, honoring 
those who have served and sacrificed for our Nation, and it coincides 
with DOL's recent celebration of the inaugural National Apprenticeship 
Week.
    Prior to joining DOL, I worked for 20 years at the state and local 
level, where I had the opportunity to serve as Director of Workforce 
Services for the Montgomery County Department of Economic Development 
and as Executive Director of the Governor's Workforce Investment Board 
(GWIB) in Maryland. As a result, I have had many opportunities to work 
with states and local stakeholders to strengthen workforce policies and 
to improve their outreach to veterans.
    As many of you know, DOL and the Department of Veterans Affairs 
(VA) use many of the same programmatic names and terms, but there are 
some important distinctions concerning how these terms are used in the 
context of each agency's programs.
    Work-based training, including Registered Apprenticeship and OJT, 
is a critical component of the Administration's job-driven training 
strategy - a strategy to ensure workforce training programs combine 
strong employer engagement with high quality training to create 
pathways for workers into high-growth occupations. The goal is to 
provide millions of Americans with secure jobs that lead to long-term 
employment with middle class wages and meet employers' needs. This job-
driven strategy complements the President's goal of doubling Registered 
Apprenticeships across the country over five years.
    Likewise, under the Workforce Innovation and Opportunity Act 
(WIOA), which governs our public workforce system, and through related 
strategic investments, DOL has emphasized talent development by 
focusing on the attainment of a ``recognized postsecondary 
credential,'' using career pathways and successful work-based training 
approaches, as well as strategically engaging robust partners, such as 
local workforce development boards, employers, institutions of higher 
education, apprenticeship agencies, and others to design the necessary 
training and credentials to build a competitive workforce.
    DOL serves over one million veterans annually through the American 
Job Center (AJC) network- the cornerstone of the unique federal, state, 
and local partnerships that comprise the public workforce system-and 
well over half of them get jobs. In addition to providing high-quality 
one-stop shopping for a range of career and training services, AJCs 
offer veterans and eligible military spouses priority of service.
    AJCs house business service teams, which include or partner with 
Local Veterans' Employment Representatives (LVERs) to offer a range of 
employer services, including outreach and development of new OJT 
opportunities and Registered Apprenticeships. These staff help match 
DOL OJT participants to employers, who receive up to 75 percent of the 
trainee's wages in order to reimburse some of the extraordinary costs 
associated with training new staff.
    In Fiscal Year (FY) 2015, ETA's sister agency, the Veterans' 
Employment and Training Service (VETS), expanded its employer outreach 
activities at both the national and regional levels. VETS guides 
employers to business service teams, specifically LVERs. Once linked to 
their local AJCs, employers are connected with local veterans looking 
for employment, and are introduced to DOL training programs, including 
registered apprenticeship programs approved by ETA's Office of 
Apprenticeship (OA).
    Employers utilizing OA's registered apprenticeship programs develop 
a world-class workforce, enhance a company's bottom line, and help to 
retain skilled workers. Veterans also benefit as they earn while they 
learn in a training model combining work-based learning with related 
classroom instruction using the highest industry standards.
    Examples of the benefits accruing from the recent expansion of 
VETS' employer outreach efforts and coordination with OA can be seen, 
for example, in the trucking and automobile manufacturing industries. 
Employers in both of these industries have had apprenticeship programs 
approved and registered with DOL. These employers have joined a 
national system of employer-driven on-the-job training made up of over 
150,000 employers in more than 1,000 occupations. VETS and the OA 
continue to expand outreach to new employers and new industries.

    DOL Investments in OJT

    Since 2010, DOL has prioritized OJT strategies because we know they 
work. OJT significantly increases the chances of finding work, and 
moderately increases employment retention; the training also leads to 
higher paid wages, on average. As part of our outcome measures, states 
are required to report, using wage records, on employment, retention 
rates, and post-program earnings. In Program Year (PY) 2013, of those 
veterans who participated in OJT, almost 85 percent were employed in 
the first quarter after exiting the program, and almost 90 percent 
remained in those jobs after six months. The six-month average earnings 
for veterans receiving OJT was $17,361.
    DOL has leveraged National Emergency Grant (NEG) programs (renamed 
National Dislocated Worker Grants under WIOA) to promote work-based 
training models, including Registered Apprenticeship and OJT, where 
veterans are a priority population. NEGs are discretionary grants 
awarded by the Secretary of Labor to provide employment-related 
services for dislocated workers and are intended to temporarily expand 
service capacity at the state and local levels by providing time-
limited funding assistance in response to significant dislocation 
events, including plant closures and mass layoffs. Funds remaining from 
this National Reserve appropriation at the end of the fiscal year are 
used to further support dislocated workers across the country. Examples 
of these NEG investments in recent years include:
    <bullet>  The On-the-Job Training NEGs, which invested $75 million 
in 41 states, three federally recognized Tribes, and the District of 
Columbia to provide workers affected by layoffs with OJT opportunities;
    <bullet>  The Dislocated Worker Training NEGs, which made available 
to states up to $50 million to provide workers with the opportunity to 
participate in training while acquiring an industry-recognized 
credential that enables them to obtain a good job. Areas with a higher 
than average demand for employment and training activities for 
dislocated military service Members and eligible spouses are eligible 
for National Dislocated Worker Grants;
    <bullet>  The Job-Driven NEGs, providing up to $150 million in 
grants to states to implement new or expanded local and regional job-
driven partnerships that will serve more dislocated workers and achieve 
better employment-related outcomes for this group of workers; and
    <bullet>  The Sector Partnerships NEGs, the most recent NEG 
investment of up to $150 million that is helping states develop 
innovative employment and training services that focus on enhanced 
regional and industry-specific collaborations.

    DOL Registered Apprenticeship

    DOL's Apprenticeship services are part of a flexible training 
system that combines job-related technical instruction with structured 
on-the-job learning experiences. The ``earn and learn'' Registered 
Apprenticeship training model provides the opportunity for workers 
seeking high-skilled, high-paying jobs to be placed with employers 
seeking to build a qualified workforce. Upon completion of a Registered 
Apprenticeship program, participants receive an industry- issued, 
nationally-recognized credential that certifies occupational 
proficiency, is portable, and can provide a pathway to the middle 
class. In many cases, these programs provide apprentices with the 
opportunity to simultaneously obtain secondary and post-secondary 
degrees. In 2014, approximately 2,200 veteran apprentices completed 
their apprenticeship in the 25 states managed by DOL. While DOL does 
not track employment outcomes for veterans in apprenticeships, over 91 
percent of participants who completed their apprenticeship were 
employed in the first quarter after exiting the program. Just as 
importantly, approximately 91 percent of the participants who completed 
their apprenticeship remained in those jobs after six months; the six-
month average earnings for these participants was $30,116.

    Expanding Registered Apprenticeship Programs to Veterans

    DOL is working to increase the use of apprenticeships nationwide, 
not only to expand opportunities for workers, but to expand 
opportunities for businesses, as well. One of the Department's most 
significant initiatives in this regard is our collaboration with the 
White House, VA, State Apprenticeship Agencies, State Approving 
Agencies, and other stakeholders to develop a new outreach campaign to 
over 10,000 Registered Apprenticeship programs to encourage them to be 
``Approved for the GI Bill.'' Use of the GI Bill is a vital way that 
companies and Registered Apprenticeship sponsors can help veterans meet 
their expenses during an apprenticeship.
    Specifically, veterans learning a trade through Registered 
Apprenticeship can use their Post-9/11 GI Bill benefits to receive a 
tax-free monthly living expenses stipend paid by the VA. Generally, 
this stipend gradually decreases for each six month period spent in the 
program. Post-9/11 GI Bill recipients can also receive a books and 
supplies stipend during their Registered Apprenticeship.
    To increase companies' access to veterans as apprentices, in 2014, 
the VA and DOL developed a streamlined system for newly-Registered 
Apprenticeship programs so that, at the time of registration with DOL, 
Apprenticeship staff will assist companies with obtaining the VA 
certification for GI Bill benefits. This new process is providing 
employers with ``one door to the government'' for their Registered 
Apprenticeship and veterans' benefit needs. More companies and 
Registered Apprenticeship programs than ever will be certified to 
provide the GI Bill benefits that their veteran apprentices have 
earned.

    American Apprenticeship Grants

    In September 2015, President Obama announced 46 winners, selected 
by DOL, for the single largest federal investment to date to expand 
U.S. apprenticeships, awarding $175 million in competitive grants as 
part of the new American Apprenticeship Grants. The winning grantees 
have pledged to train and hire more than 34,000 new apprentices in 
industries as diverse as healthcare, information technology, and 
advanced manufacturing over the next five years.
    These grants are part of a broader commitment from DOL to create 
more opportunities for hard-working Americans, including veterans and 
returning service Members and their spouses, by advancing job-driven 
training initiatives that help them acquire the skills they need to 
succeed in good jobs that are available now. The 46 grantees have each 
committed to expanding apprenticeship programs in new and growing 
industries, to align apprenticeships with further education and career 
advancement, and to scale proven apprenticeship models that work, while 
targeting underserved populations and serving our Nation's veterans.
    The San Diego-based, Able-Disabled Advocacy, is among those 
veterans-focused organizations awarded a grant, receiving $3.2 million 
to lead the San Diego Pathways2Paychecks Apprenticeship Program. The 
program will train 300 workers, 80 percent of which will represent 
those from underserved populations, including veterans, in IT and 
manufacturing.
    In addition, a $5 million grant will fund the Wisconsin 
Apprenticeship Growth and Enhancement Strategies (WAGE$) project. 
Veterans will be among 1,000 new apprentices and 542 upskilled 
incumbent workers in 12 high-growth occupations, including advanced 
manufacturing, healthcare, and IT industries.
    Veterans will also benefit from a program in Brooklyn, New York, 
called ``NPower,'' which was awarded $3.3 million to fund an IT 
apprenticeship program. The project will provide mentorship and 
guidance for 684 participants in Dallas, TX; Newark, NJ; and San 
Francisco, CA.
    The Administration is working to double the number of apprentices 
in the United States and ensure that more Americans from all 
backgrounds can benefit from this proven training model. As part of 
this effort, we are updating and simplifying the guidelines for 
employers and other apprenticeship sponsors on how to use best 
practices to ensure equal employment opportunity in apprenticeship 
programs for traditionally under-represented groups, including women, 
minorities, and people with disabilities, as well as veterans, who 
continue to receive priority of service access to all DOL-funded 
programs. And, finally, the President's Fiscal Year 2016 budget also 
proposes to spend $100 million to build on the American Apprenticeship 
Grants to support the efforts of states, employers and others to 
enhance apprenticeship across the country.

    Conclusion

    Mr. Chairman, Ranking Member Takano, and Members of the 
Subcommittee this concludes my statement. Thank you for the opportunity 
to appear before you today. I would be pleased to respond to any 
questions.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
